CERTIFICATE OF SERVICE
NO. TBD
Anthony Tricoli
Petitioner,
v.
Rob Watts Et Al.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
ANTHONY TRICOLI PETITION FOR WRIT OF CERTIORARI, by mailing one (1) true and correct copy of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:

Christopher M. Carr
Office of the Attorney General
40 Capitol Square SW
Atlanta, GA 30334
(404) 656-3300
ccarr@law.ga.gov
Counsel for Rob Watts Et Al.

Lucas DeDeus

January 7, 2021
SCP Tracking: Humphreys-P.O. Box 192-Cover White

